No. _____

In the Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL,

Applicant,
v.
AGNES DEIRDRE MORRISSEY-BERRU,

Respondent.
______________________________________________________________________________
APPLICATION TO THE HON. JUSTICE ELENA KAGAN FOR AN EXTENSION OF TIME TO FILE A PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
______________________________________________________________________________
Pursuant to Supreme Court Rule 13(5), Our Lady of Guadalupe School moves for
an extension of time of 30 days, to and including August 28, 2019, for the filing of a
petition for a writ of certiorari. Unless an extension is granted, Our Lady of Guadalupe School’s deadline for the filing of the petition will be July 29, 2019.
In support of this request, Our Lady of Guadalupe states as follows:
1. The Court of Appeals issued its opinion on April 30, 2019 (Exhibit 1). This
Court has jurisdiction over the judgment under 28 U.S.C. § 1254(1).
2. This case involves an exceptionally important legal question concerning the
protection provided by the First Amendment’s Religion Clauses for religious organizations’ selection of their ministers. That question is the subject of a sharp split in
legal authority. The Ninth Circuit panel decision below splits with fourteen other
federal courts of appeals and state supreme courts on how to determine who qualifies

as a “minister.” The panel decision also conflicts this Court’s decision in HosannaTabor Evangelical Lutheran Church and School v. EEOC, 565 U.S. 171 (2012), and
particularly sharply with the “functional consensus” of existing caselaw identified
and explained by Justices Alito and Kagan in their concurrence, id. at 203-04.
3. The panel decision instead followed a divided opinion of the Ninth Circuit, Biel
v. St. James School, 911 F.3d 603 (9th Cir. 2018). Recently, on June 25, 2019, nine
judges dissented from the Ninth Circuit’s denial of a petition for rehearing en banc
in Biel, stating that the Biel panel majority’s analysis “poses grave consequences for
religious minorities” and “conflicts with Hosanna-Tabor, decisions from our court and
sister courts, decisions from state supreme courts, and First Amendment principles.”
See Biel v. St. James School, 926 F.3d 1238, 1239-40 (9th Cir. 2019). The dissental
also addresses the panel opinion in this matter. Id. at 1250-51.
4. Our Lady of Guadalupe retained undersigned counsel after the April 30 decision. Like St. James School in Biel, Our Lady of Guadalupe School is a ministry of
the Archdiocese of Los Angeles. Undersigned counsel now represents both schools,
and a petition for certiorari on behalf of St. James School will also be forthcoming.
5. Since April 30, undersigned counsel have been heavily engaged in other matters, including filing a petition for a writ of certiorari to the Idaho Supreme Court in
Ricks v. State of Idaho Contractors Board, No. 19-66; filing an opening brief in Business Leaders in Christ v. University of Iowa, No. 19-1696 (8th Cir.); completing briefing on summary judgment in InterVarsity Christian Fellowship/USA v. University of
Iowa, No. 18-cv-00080 (S.D. Iowa); preparing for oral argument in California v. The

2

Little Sisters of the Poor, Nos. 18-15144; 18-15166; 18-15255 (9th Cir.); briefing a motion to intervene and an opposition to a motion for preliminary injunction in State of
New York v. United States Department of Health and Human Services, No. 19-cv-4676
(S.D.N.Y.); and participating in oral argument on cross motions to dismiss and for
partial summary judgment in InterVarsity Christian Fellowship/USA v. Wayne State
University, No. 19-cv-10375 (E.D. Mich.). Counsel are also involved in drafting a petition for a writ of certiorari to the Third Circuit in Fulton v. City of Philadelphia, No.
18-2574 (3d Cir.), and filing a reply brief to the Eighth Circuit in Business Leaders in
Christ, both of which are due before the current deadline to file Our Lady of Guadalupe’s petition for certiorari.
6. Our Lady of Guadalupe thus requests a modest extension for counsel to prepare a petition that fully addresses the important issues raised by the decision below
and frames those issues in a manner that will be most helpful to the Court.
WHEREFORE, for the foregoing reasons, Our Lady of Guadalupe respectfully requests that an extension of time to and including August 28, 2019, be granted for
filing its brief in support of its petition for review.

Respectfully submitted,
/s/ Eric C. Rassbach
ERIC C. RASSBACH
Counsel of Record
DANIEL H. BLOMBERG
THE BECKET FUND FOR RELIGIOUS LIBERTY
1200 New Hampshire Ave. N.W.
Suite 700
Washington, D.C. 20036

3

(202) 955-0095
erassbach@becketlaw.org
Counsel for Applicant

4

EXHIBIT 1

FILED

NOT FOR PUBLICATION

APR 30 2019

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
AGNES DEIRDRE MORRISSEY-BERRU,
an individual,
Plaintiff-Appellant,
v.

No.

U.S. COURT OF APPEALS

17-56624

D.C. No.
2:16-cv-09353-SVW-AFM
MEMORANDUM*

OUR LADY OF GUADALUPE SCHOOL,
a California non-profit corporation,
Defendant-Appellee.
Appeal from the United States District Court
for the Central District of California
Stephen V. Wilson, District Judge, Presiding
Argued and Submitted April 11, 2019
Pasadena, California
Before: RAWLINSON and MURGUIA, Circuit Judges, and GILSTRAP,**
District Judge.
Agnes Deirdre Morrissey-Berru brought a claim under the Age
Discrimination in Employment Act (“ADEA”) against her former employer, Our

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable James Rodney Gilstrap, United States District Judge
for the Eastern District of Texas, sitting by designation.

Lady of Guadalupe School (the “School”). The only issue reached by this Court is
whether the district court properly granted summary judgment in favor of the
School on the basis that Morrissey-Berru was a “minister” for purposes of the
ministerial exception. We have jurisdiction under 28 U.S.C. § 1291, and we
reverse.1
This Court reviews a grant of summary judgment de novo and views the
evidence in the light most favorable to the non-moving party. Olsen v. Idaho State
Bd. of Med., 363 F.3d 916, 922 (9th Cir. 2004).
In Hosanna-Tabor Evangelical Lutheran Church & School v. EEOC, the
Supreme Court recognized the ministerial exception for the first time, 565 U.S.
171, 188 (2012), and considered the following four factors in analyzing whether
the exception applied: (1) whether the employer held the employee out as a
minister by bestowing a formal religious title; (2) whether the employee’s title
reflected ministerial substance and training; (3) whether the employee held herself
out as a minister; and (4) whether the employee’s job duties included “important
religious functions,” id. at 191–92. Hosanna expressly declined to adopt “a rigid
formula for deciding when an employee qualifies as a minister,” and instead
considered “all the circumstances of [the employee’s] employment.” Id. at 190.

1

We assume the parties’ familiarity with the facts and procedural history of
this case.
2

Considering the totality of the circumstances in this case, we conclude that
the district court erred in concluding that Morrissey-Berru was a “minister” for
purposes of the ministerial exception. Unlike the employee in Hosanna-Tabor,
Morrissey-Berru’s formal title of “Teacher” was secular. Aside from taking a
single course on the history of the Catholic church, Morrissey-Berru did not have
any religious credential, training, or ministerial background. Morrissey-Berru also
did not hold herself out to the public as a religious leader or minister.
Morrissey-Berru did have significant religious responsibilities as a teacher at
the School. She committed to incorporate Catholic values and teachings into her
curriculum, as evidenced by several of the employment agreements she signed, led
her students in daily prayer, was in charge of liturgy planning for a monthly Mass,
and directed and produced a performance by her students during the School’s
Easter celebration every year. However, an employee’s duties alone are not
dispositive under Hosanna-Tabor’s framework. See Biel v. St. James Sch., 911
F.3d 603, 609 (9th Cir. 2018). Therefore, on balance, we conclude that the
ministerial exception does not bar Morrissey-Berru’s ADEA claim.2 See id. at
608–11 (holding that the ministerial exception did not apply under similar
circumstances).

2

As the district court indicated, Morrissey-Berru’s ADEA claim, based on
her demotion, appears to be time barred. However, we leave it to the district court
to resolve this issue in the first instance on remand.
3

REVERSED.

4

